APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 18-3092
Kirk Cottom
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
No: 18-3093
Kirk Cottom
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeals from U.S. District Court for the District of Nebraska - Omaha
(8:18-cv-00207-JFB)
(8:18-CV-00206-JFB)
JUDGMENT
Before LOKEN, BOWMAN and STRAS, Circuit Judges.
These appeals come before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the

Appellate Case: 18-3093

Page: 1

Date Filed: 02/01/2019 Entry ID: 4752085

application for a certificate of appealability is denied. The appeals are dismissed.
February 01, 2019

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E, Gans

Appellate Case: 18-3093

Page: 2

Date Filed: 02/01/2019 Entry ID: 4752085

APPENDIX B

8:15-cr-00239-JFB-TDT Doc # 53 Filed: 08/31/18 Page 1 of 10 - Page ID # 557

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
UNITED STATES OF AMERICA,
Plaintiff,

8:13CR108; 8:15CR239

vs.
MEMORANDUM AND ORDER
KIRK COTTOM
Defendant.

This matter is before the Court on the defendant's motion to vacate under 28 U.S.C.
§ 2255. Filing No. 302 in 8:13CR108 and Filing No. 43 in 8:15CR239. The Court initially
reviewed this case and ordered the government to file an answer addressing defendant’s
constitutional claims. Filing No. 303 in 8:13CR108 and Filing No. 44 in 8:15CR239. The
government filed its answer. Filing No. 308 in 8:13CR108 and Filing No. 48 in 8:15CR239.
I.

BACKGROUND
Cottom, along with numerous others, was indicted for child pornography offenses in

the United States District Court for the District of Nebraska after an FBI investigation of child
pornography web servers based in Bellevue, Nebraska. In March 2013, he was charged with
receiving and attempting to receive child pornography (Count I) in violation of Title 18 U.S.C.
§ 2252A(a)(2) on November 19, 2012, and with knowingly accessing with the intent to view
child pornography (Count II) in violation of Title 18 U.S.C. §
2252A(a)(5) on November 19, 2012. In April 2015, the defendant was also indicted in the
Western District of New York on charges of receipt of child pornography (Count I) in violation
of Title 18 U.S.C. §§ 2252A(a)(2)(A) and 2252A(b)(1), and possession of child pornography
(Counts ll-IV). That case was transferred to the District of Nebraska on July 31, 2015. See
Case No. 8:15CR239.

8:15-cr-00239-JFB-TDT Doc #53 Filed: 08/31/18 Page 2 of 10 - Page ID # 558

This is a case involving the government’s use of a Network Investigative Technique
(“NIT”) warrant to monitor and intercept internet traffic of child pornography. The defendant
moved to suppress the evidence from the NIT search, alleging he was not provided notice.
After an evidentiary hearing, the Magistrate Judge recommended that the Motion to Suppress
be denied. Filing No. 148 in 8:13CR108; Findings and Recommendation at 7-4B. Cottom
objected to the Magistrate Judge’s recommendation, but the Court overruled the objection
and accepted the Magistrate Judge’s Findings and Recommendations. Filing No. 155 in
8:13CR108.
Cottom entered a conditional plea of guilty to the charge of accessing with intent to
view pornography (Count II) in 8:13CR108 and to the charge of receiving child pornography
(Count I) in 8:15CR239, reserving his right to appeal the Court’s suppression ruling. Cottom
was sentenced to 72 months of imprisonment. He later moved to withdraw his guilty plea and
the Court denied the motion.
- Cottom appealed to the United States Court of Appeals for the Eighth Circuit ("Eighth
Circuit"). Opinion; United States v. Cottom, 679 F. App'x 518,520 (8th Cir. 2017). On appeal,
he challenged the government’s delayed notice following the execution of the NIT warrant,
but not the Magistrate Judge’s authority to issue the .warrant. Id. The Eighth Circuit affirmed
the district court’s judgment. Id.
In his brief in support of his § 2255 motion, the defendant describes the prosecutors
as the “Keith Becker cabal” and refers to defense counsel as “shills." Filing No. 305 in
8:13CR108 and Filing No. 45 in 8:15CR239. The brief contains unsupported assertions that
the prosecutor’s “malicious prosecution scheme” was based on perjured testimony by special
agents and expert witnesses before the grand jury.

2

8:15-cr-00239-JFB-TDT Doc # 53 Filed: 08/31/18 Page 3 of 10 - Page ID # 559

Cottom alleges that Nebraska counsel Joseph Gross and Joseph Howard and New
York counsel Steven Slawinski were ineffective in that each failed to communicate with and
maintain loyalty to him, ignored his requests, and failed to investigate all avenues of defense.
He further contends that Howard and Slawinski coerced him to enter into a plea agreement,
and argues that had his counsel been effective, the result of the case would have been
different. The government responds that counsel was not ineffective in failing to follow the
defendant’s requests because the requests were meritless; and it also argues that the
defendant was not prejudiced by any alleged failures to communicate.
The defendant also alleges prosecutorial misconduct. He argues that he was indicted
in New York as part of a scheme to acquire more evidence to prove the Nebraska charges.
He further alleges misconduct in the prosecutor’s loss of the source code of the NIT, which,
Cottom contends, would have been favorable to the defendant.1 He argues that the source
code is material to his innocence or guilt and he is therefore prejudiced by the inability to
obtain it. The defendant also argues that the prosecutor suborned perjury by witnesses. In
response, the government argues that the defendant has failed to point to evidence that
shows "that the federal prosecutorial policy ‘had a discriminatory effect and that it was
motivated by a discriminatory purpose”’ as required by United States v. Armstrong, 517 U.S.
456, 465 (1996) (quoting Wayte v. United States, 470 U.S. 598, 608 (1985).

1 During discovery, Cottom sought the original source code that was used to create and deploy the NIT
and the government conceded that the original source code was not preserved. Based on that concession,
Cottom moved to exclude expert testimony under Daubert v. Merrell Dow Phams. Inc., 509 U.S. 579 (1993) but
this court denied the motion, finding, after a hearing, that the original source code was of little consequence to
Daubert determination, was publicly available, and the compiled NIT code was contained in the servers involved
in the investigation that had been preserved and made available to the defendants' experts. See Filing No. 25
in 8:15CR239, Memorandum and Order at 5-7. The Eighth Circuit affirmed that determination, as well as this
Court's denial of a motion based on spoliation. Cottom, 679 F. App'x at 523.

3

8:15-cr-00239-JFB-TDT Doc # 53 Filed: 08/31/18 Page 4 of 10 - Page ID # 560

Finally, the defendant argues that his Fourth Amendment right to be free from an
unreasonable search and seizure was violated because the United States Magistrate Judge
in the District of Nebraska did not have the authority to issue the warrant permitting use of an
NIT. The government relies on this Court’s decision in the case of another defendant charged
in the same investigation for the proposition that the NIT warrant was properly authorized
under Federal Rule of Criminal Procedure 41(b)(1)(4). See United States v. Laurita, No.
8:13CR107, 2016 WL 4179365 (D. Neb. Aug. 5, 2016). Also, it argues that suppression of
the evidence, even if obtained unconstitutionally, is inappropriate in any event because the
evidence falls within the Leon good faith exclusion.
II.

DISCUSSION
A.

Law
1.

Ineffective Assistance

Ineffective assistance of counsel issues are appropriately raised in collateral
proceedings. United States v. Hughes, 330 F.3d 1068, 1069 (8th Cir. 2003). “The right to
counsel is a fundamental right of criminal defendants; it assures the fairness and thus the
legitimacy, of our adversary process." Kimmelman v. Morrison, 477 U.S. 365, 374 (1986).
The right to counsel includes the right to reasonably effective counsel. Strickland v.
Washington, 466 U.S. 668, 694 (1984).
To prevail on an ineffective assistance of counsel claim, a petitioner must show that
his attorney’s performance fell below an .objective standard of reasonableness and that he
was prejudiced thereby. Id. at 688. There is a "strong presumption that counsel’s conduct
falls within the wide range of reasonable professional assistance.” Id. at 689. “[Strategic
choices made after thorough investigation of law and facts relevant to plausible options are
virtually unchallengeable." United States v. Rice, 449 F.3d 887, 897 (8th Cir. 2006).
4

8:15-cr~00239-JFB-TDT Doc # 53 Filed: 08/31/18 Page 5 of 10 - Page ID # 561

When a claim of ineffective assistance of counsel involves a claim of attorney error
during the course of a legal proceeding, such as that counsel failed to raise an objection at
trial or to present an argument on appeal, a defendant "can demonstrate prejudice by showing
‘a reasonable probability that, but for counsel's unprofessional errors, the result of the
proceeding would have been different.”’ Lee v. United States, 137 S. Ct. 1958,1964 (2017)
(quoting Roe v. Flores-Ortega, 528 U.S. 470, 481 (2000). “[Wjhen a defendant claims that
his counsel's deficient performance deprived him of a trial by causing him to accept a plea,
the defendant can show prejudice by demonstrating a ‘reasonable probability that, but for
counsel's errors, he would not have pleaded guilty and would have insisted on going to trial.”’
Lee, 137 S. Ct. at 1965 (quoting Hill v. Lockhart, 474 U.S. 52, 59 (1985)). “But, ‘[cjourts
should not upset a plea solely because of post hoc assertions from a defendant about how
he would have pleaded but for his attorney's deficiencies. Judges should instead look to
contemporaneous evidence, to substantiate a. defendant's expressed preferences.”’
Thompson v. United States, 872 F.3d 560, 567 (8th Cir. 2017) (quoting Lee, 137 S. Ct. at
1967).

.
2.

Prosecutorial Misconduct

Prosecutors have broad discretion to enforce criminal laws. Armstrong, 517 U.S. at
456. Prosecutorial discretion is a well-established facet of our criminal justice system. United
States v. Beede, 974 F.2d 948, 952 (8th Cir. 1992) (“[Prosecutors must remain free to
exercise their prosecutorial discretion with respect to the charging decision.”).

A

“‘presumption of regularity supports' their prosecutorial decisions and, ‘in the absence of clear
evidence to the contrary, courts presume that they have properly discharged their official
duties.'” Armstrong, 517 U.S. at 464 (quoting United States v. Chem. Found., Inc., 272 U.S.
1, 14-15 (1926)). "In the ordinary case, ‘so long as the prosecutor has probable cause to
5

8:15-cr-00239-JFB-TDT Doc #53 Filed: 08/31/18 Page 6 of 10 - Page ID # 562

believe that the accused committed an offense defined by statute, the decision whether or
not to prosecute, and what charge to file or bring before a grand jury, generally rests entirely
in his discretion.’" Id. (quoting Bordenkircher v. Hayes, 434 U.S. 357, 364 (1978)).
Of course, prosecutorial discretion is subject to constitution constraints. Id. (noting
that one of these constraints is imposed by the equal protection component of the Fifth
Amendment Due Process Clause). “[Pjrosecutorial discretion has limits; it violates the Due
Process Clause for a prosecutor to engage in vindictive prosecution—to punish a defendant
for exercising her statutory or constitutional rights.” United States v: Goodwin, 457 U.S. 368,
372 (1982); see also United States v: Williams: 793 F.3d 957, 963 (8th Cir/2015).
Also, a guilty plea bars many claims, ‘‘including some ‘antecedent constitutional
violations’ related to events (say, grand jury proceedings) that had ‘occurred prior to the entry
of the guilty plea.’” Class v. United States, 138 S. Ct. 798,804-05 (2018) (quoting Bfacktedge
v. Perry, 417 U.S. 21, 30 (1974)). Such case-related constitutional defects can be cured
through a new indictment by a properly selected grand jury.

See id.

Allegations of

prosecutorial misconduct before the grand jury are subject to harmless error review. See
United States v. Mechanik, 475 U.S, 66, 72-73 (1986). “Where the use of known perjury
involves prosecutorial misconduct, it constitutes corruption of the truth-seeking function of the
trial process.” Lindhorst v. United States, 658 F.2d 598, 602 (8th Cir. 1981) (quotation
omitted).
3.

Fourth Amendment

The Eighth Circuit has held that a warrant issued in circumstances such as these is
void ab initio and rises to the level of a constitutional infirmity. United States v. Horton, 863
F.3d 1041, 1051 (8th Cir. 2017), cert, denied, 138 S. Ct. 1440 (2018). However, application
of the good-faith exception announced in United States v. Leon, 468 U.S. 897 (1984),

6

8:15-cr-00239-JFB-TDT Doc #53 Filed: 08/31/18 Page 7 of 10 - Page ID # 563

operates in these circumstances to prevent suppression of the evidence seized pursuant to
the warrant. Id. at 1051 -52 (noting that the deterrence benefits of suppression must outweigh
its heavy costs for exclusion to be appropriate). “Because Rule 41 has been updated to
authorize warrants exactly like this one, there is no need to deter law enforcement from
seeking similar warrants.” Id. at 1052. The Leon exception to the exclusionary rule applies
“as long as the circumstances do not demonstrate bad faith.” Id. at 1051.
B.

Analysis

The court first finds the defendant’s ineffective assistance claims lack merit. Cottom
has not shown that counsels’ conduct fell below an objective level of reasonableness. Most
importantly, he has not shown that he was prejudiced by any alleged ineffectiveness of
counsel. The record shows the defendant willingly, voluntarily, and knowingly entered pleas
of guilty to the charges.
Even assuming counsels’• errors, Cottom has not demonstrated' a reasonable
probability that, but for those errors, he would hot have pleaded guilty and would have insisted
on going to trial. The Court must “look to contemporaneous evidence to substantiate”
Cottom’s assertion that he would not have entered a plea, and the evidence is substantially
to the contrary. Cottom entered a conditional plea, preserving his right to. challenge the
Court’s ruling on his motion to suppress. It is clear from the record that suppression of the
evidence obtained via the NIT warrant provided the defendant with the only realistic chance
of an acquittal or dismissal of charges. The conditional plea left that avenue open to the
defendant. Absent suppression, the defendant had no plausible chance of acquittal at trial.
In weighing his prospects, the plea agreement clearly offered him a better resolution than he
would likely obtain through a trial.

7

8:15-cr-00239-JFB-TDT Doc # 53 Filed: 08/31/18 Page 8 of 10 - Page ID # 564

Had Cottom not pled guilty and proceeded to trial, he would most likely have been
convicted. Numerous others indicted as a result of the FBI’s investigation of the child
pornography web server in Bellevue, Nebraska, were either convicted of child pornography
offenses after trial Or entered guilty pleas to the charges. The Court is familiar with the
government’s evidence in these cases and finds the evidence against the defendants was
substantial. Cottom fails to point to sufficient contemporaneous evidence to support his post
hoc assertion that he would not have pleaded guilty absent his attorneys' allegedly erroneous
advice. Without such evidence, his ineffective assistance of counsel claims must fail. The
Court finds the defendant’s ineffective assistance claims lack merit and his motion to vacate
on that ground should be denied.
As to Gottorn’s claim of prosecutorial misconduct, he has not shown that the
government’s charging decision was inappropriatein any way. He has not demonstrated that
the government’s exercise of prosecutorial discretion was vindictive or discriminatory. Nor
has he presented any evidence that the government’s loss of the computer source code was
purposeful or deliberate. Further, he presents nothing to challenge the Court’s conclusion
that the source code was not meaningfully relevant in any event.
The defendant’s claim of prosecutorial misconduct in connection with perjured
testimony also lacks merit. Ifesumiftg"his claitn-is not barred by hie guilty plea, the.claim'lacter IccllncTe
|ft
specificity—he simply asserts that witnesses lied to the grand jury in somegeneral and vague 5
ctfe-upT

capacity.- Those allegations are completely unsupported. The Court finds that defendant’s Specific?
claim of perjury to the grand jury is frivolous and the motion to vacate should therefore be
denied on that ground. The Court finds the defendant’s claim of prosecutorial misconduct
lacks merit.

8

8:15*cr-00239-JFB-TDT Doc # 53 Filed: 08/31/18 Page 9 of 10 - Page ID # 565

With respect to the defendant’s Fourth Amendment claim, although the Magistrate
Judge may have lacked authority to issue the warrant for a search in another district under
Federal Rule of Criminal Procedure 41 as it was then written, the Court finds that the Leon
good faith exception would have been applied and the evidence would not have been
excluded.(cottom has neither argued nor shown that the agents executed the warrant in bad Tr^HA0TV.
."faith.) He has not shown that the evidence seized pursuant to the warrant would have been
1
excluded at trial or on appeal, so as to affect the outcome of the case. Accordingly, the Court
finds Cottom’s motion to vacate his conviction and sentence should be denied.
C.

Certificate of Appealability -

The defendant must make a substantial showing of the denial of a constitutional right
in order to be granted a certificate of appealability in this case. See Miller-El v. Cockrell, 537
U.S. 322 (2003). “A substantial showing is a showing that issues are debatable among
reasonable jurists, a court could resolve the issues differently, or the issues deserve further
proceedings.” Cox v, Norris, 133 F.3d 565, 569 (8th Cir. 1997). Moreover, ‘“[wjhere a district
court has rejected the constitutional claims on the merits, the showing required to satisfy §
2253(c) is straightforward: The petitioner must demonstrate that reasonable jurists would find
the district court’s assessment of the constitutional claims debatable or wrong.’” Miller-El,
537 U.S. at 338 (quoting Slack v, McDaniel, 529 U.S. 473, 484 (2000)).
The Court finds the defendant’s motion does not present questions of substance for
appellate review and, therefore, does not make the requisite showing to satisfy § 2253(c).
See 28 U.S.C. § 2253(c)(2); Fed. R. App. P. 22(b). Accordingly, no certificate of appealability
pursuant to 28 U.S.C. § 2253(c) will issue. Should the defendant wish to seek further review
of his petition, he may request a certificate of appealability from a judge of the United States

9

i

!/

8:15-cr-00239-JFB-TDT Doc # 53 Filed; 08/31/18 Page 10 of 10 - Page ID # 566

Court of Appeals for the Eighth Circuit. See Tiedeman v, Benson, 122 F.3d 518, 520-22 (8th
Cir, 1997). Accordingly,
IT IS ORDERED;
1.

The defendant’s motion to vacate, Filing No. 302 in 8:13CR108 and Filing No.

43 in 8:15CR239, is denied.
2.

No Certificate of Appealability will issue.

3.

A separate judgment will be entered in accordance with this memorandum and

order.
Dated this 31st day of August, 2018.
BY THE COURT;
si Joseph F. Bataillon
Senior United States District Judge

l

10

APPENDIX Ca

V

*»

*;

..

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 18-3092
Kirk Cottom
Appellant
v.
United States of America
Appellee
No: 18-3093 .
Kirk Cottom
Appellant
v.
United States of America
Appellee

Appeals from U.S. District Court for the District of Nebraska - Omaha
(8:18-CV-00207-JFB)
(8:18-cv-00206-JFB)
ORDER
The petition for rehearing by the panel is denied.
March 13,2019

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

